Department of Health and Human Services

        OFFICE OF
   INSPECTOR GENERAL




  Quality Assurance Committees in
           Nursing Homes




                    JANET REHNQUIST
                    INSPECTOR GENERAL

                      JANUARY 2003
                      OEI-01-01-00090
                    OFFICE OF INSPECTOR GENERAL

                                        http://www.oig.hhs.gov/



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended,
is to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as
the health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:


Office of Audit Services

The OIG's Office of Audit Services (OAS) provides all auditing services for HHS, either by conducting
audits with its own audit resources or by overseeing audit work done by others. Audits examine the
performance of HHS programs and/or its grantees and contractors in carrying out their respective
responsibilities and are intended to provide independent assessments of HHS programs and operations in
order to reduce waste, abuse, and mismanagement and to promote economy and efficiency throughout the
Department.


Office of Evaluation and Inspections

The OIG's Office of Evaluation and Inspections (OEI) conducts short-term management and program
evaluations (called inspections) that focus on issues of concern to the Department, the Congress, and the
public. The findings and recommendations contained in the inspections reports generate rapid, accurate,
and up-to-date information on the efficiency, vulnerability, and effectiveness of departmental programs.


Office of Investigations

The OIG's Office of Investigations (OI) conducts criminal, civil, and administrative investigations of
allegations of wrongdoing in HHS programs or to HHS beneficiaries and of unjust enrichment by
providers. The investigative efforts of OI lead to criminal convictions, administrative sanctions, or civil
monetary penalties. The OI also oversees State Medicaid fraud control units which investigate and
prosecute fraud and patient abuse in the Medicaid program.


Office of Counsel to the Inspector General

The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support in OIG’s internal
operations. The OCIG imposes program exclusions and civil monetary penalties on health care providers
and litigates those actions within the Department. The OCIG also represents OIG in the global settlement
of cases arising under the Civil False Claims Act, develops and monitors corporate integrity agreements,
develops model compliance plans, renders advisory opinions on OIG sanctions to the health care
community, and issues fraud alerts and other industry guidance.
                        EXECUTIVE SUMMARY

OBJECTIVE

         To assess nursing home compliance with federal requirements pertaining to quality assessment
         and assurance committees and to describe the committees.

BACKGROUND

         Quality assessment and assurance committees (QA committees) represent key points of
         accountability for ensuring both quality of care and quality of life in nursing homes. The
         Omnibus Budget Reconciliation Act of 1987 (OBRA 87) required nursing homes to maintain
         QA committees that meet at least quarterly and identify and correct quality deficiencies and
         improve care. The Centers for Medicare & Medicaid Services (CMS) determines whether
         nursing homes meet those requirements through the survey and certification process.

         This inspection is based on 384 responses to a mail survey of nursing homes, analysis of data
         from CMS’ Online Survey Certification and Reporting (OSCAR) system, site visits to 3 nursing
         homes, and 33 stakeholder interviews.


FINDINGS

         The OBRA 87 mandates that nursing homes maintain QA committees as vehicles for improving
         quality of care and life in nursing homes. Our assessment shows that nearly all nursing homes
         meet CMS’ requirements for QA committee membership and frequency of meetings.
         Furthermore, QA committees have an array of data sources to help target problem areas in
         their nursing homes. However, a lack of knowledge on conducting QA committee work, as
         well as staff shortages and turnover, challenge QA committees.

Overall, nursing homes are in compliance with QA committee requirements but
face some barriers.

         Nursing homes meet requirements for QA committee membership. From 1997 to 2001,
         99 percent of nursing homes met CMS’ requirements for QA committee membership. In 80
         percent of the nursing homes that we surveyed, QA committees consisted of 7 or more
         members from several areas of their nursing homes.

         Nursing homes meet requirements for frequency of QA committee meetings. From
         1997 to 2001, 99 percent of nursing homes met CMS’ requirements for quarterly QA
         committee meetings. Additionally, 61 percent of nursing homes indicated on our survey


Nursing Home QA Committees                          i                                   OEI-01-01-00090
         that their QA committees meet more frequently than required by regulation.

         The QA committees use an array of data sources to target problem areas in their
         nursing homes. The QA committees reported relying on an average of eight sources of
         information to assess the care their nursing homes provide as well as other aspects of the
         nursing home’s operations. These sources include CMS’ quality indicators, certification survey
         results, and staff and resident input.

         However, knowledge deficits impede QA committees. While QA committees have an
         array of information to help them pinpoint problems in nursing homes, knowledge of how to use
         this information to execute projects remains a key barrier.

         Staff shortages and turnover challenge QA committees. On our survey, 53 percent of
         nursing homes reported that not having enough staff was a barrier to a more effective QA
         committee, and 47 percent of nursing homes cited general staff turnover, such as among
         certified nursing assistants, as a barrier.

.
CONCLUSION

         Our review shows that nearly all nursing homes meet CMS’ two requirements for QA
         committees. The QA committees also have many sources of information available to them.
         However, a lack of knowledge on how to use this available information impedes QA
         committees. Additionally, staff shortages and turnover in nursing homes are further barriers to
         QA committees. These fundamental challenges can impede the work of even the most diligent
         QA committee.




Nursing Home QA Committees                          ii                                   OEI-01-01-00090
                            TABLE                         OF                CONTENTS


                                                                                                                                     PAGE


EXECUTIVE SUMMARY . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . i


INTRODUCTION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1


FINDINGS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 4


          Nursing homes are in compliance with requirements but face barriers. . . . . . . . . . . . . . . . . . . 4


CONCLUSION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 9


APPENDICES . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 10


          A: Methodology . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 10


          B: Endnotes . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 14


ACKNOWLEDGMENTS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 15





Nursing Home QA Committees                                            iii                                                OEI-01-01-00090
                                INTRODUCTION

OBJECTIVE

         To assess nursing home compliance with federal requirements pertaining to quality assessment
         and assurance committees and to describe the committees.

BACKGROUND

OBRA 87 and Quality Assessment and Assurance Committees

         Concerns about substandard care and resident quality of life as well as inadequate oversight of
         substandard nursing homes led to a landmark 1986 study by the Institute of Medicine (IOM).
         Among its findings, the IOM wrote that “more effective government regulation can substantially
         improve quality in nursing homes.”1 In response to the report, Congress passed a number of
         nursing home provisions as a part of the Omnibus Budget Reconciliation Act of 1987 (OBRA
         87).

         OBRA 87 instituted substantial reforms in nursing homes to improve quality of care and quality
         of life, and to protect residents’ rights. Quality assessment and assurance committees (QA
         committees) represent a vehicle mandated by OBRA 87 to achieve those improvements.
         Specifically, OBRA 87 requires nursing homes to “maintain a quality assessment and assurance
         committee, consisting of the director of nursing services, a physician designated by the facility,
         and three other members of the facility’s staff.” The committee must meet “at least quarterly to
         identify issues with respect to which quality assessment and assurance activities are necessary,
         and develop and implement appropriate plans of action to correct identified quality
         deficiencies.”

Holding Nursing Homes Accountable for Quality Assurance

         The Centers for Medicare & Medicaid Services (CMS) implemented final regulations for
         OBRA 87 provisions in July 1995. Nursing homes participating in Medicare must meet these
         requirements. Among the requirements are two specifically about QA committees. These
         requirements mirror the provisions of OBRA 87. One requirement calls for the existence and
         specific membership of a committee, and the other calls for the committee to meet quarterly and
         to identify issues in the nursing home requiring QA committee activity.

         The CMS determines whether nursing homes meet those requirements through the survey and
         certification process. Surveyors assess QA committee requirements by interview and
         observation. The CMS instructs surveyors to interview a facility’s administrative staff to


Nursing Home QA Committees                           1                                     OEI-01-01-00090
         determine that it has a QA committee and that its required membership and frequency of
         meetings comply with the requirements. Surveyors do not have access to QA committee
         minutes due to the confidentiality of these documents mandated by OBRA 87. The CMS
         instructs surveyors to describe in the survey report how the facility identifies quality deficiencies
         and responds to the identified issues.

Significance of QA Committees

         The QA committees provide an important point of accountability for ensuring both quality of
         care and quality of life in nursing homes. They represent key internal mechanisms that allow
         nursing homes opportunities to deal with quality concerns in a confidential manner and can help
         them sustain a culture of quality improvement. Nursing homes are already subject to significant
         external oversight, such as the Medicare and Medicaid certification process and ombudsman
         program. However, because of their external nature, they are outside the scope of a nursing
         home’s own control. The QA committees, on the other hand, are internal and ideally can
         complement the external oversight.

         To date, CMS has provided limited guidance to help QA committees. Guidance on quality
         assurance and improvement can come from the survey process in the form of what CMS calls
         “information transfer.” This permits the surveyor to inform the nursing home about “care and
         regulatory topics that would be useful to the facility for understanding and applying best
         practices in the care and treatment of long term care residents.”2 Yet, information transfer is
         not consultative. The CMS’ State Operations Manual, which provides guidance to state
         agencies, states that “This information exchange is not a consultation with the facility but is a
         means of disseminating information that may be of assistance to the facility in meeting long term
         care requirements.”3

METHODOLOGY

         We selected a national, simple random sample of 601 nursing homes from CMS’ Online
         Survey Certification and Reporting (OSCAR) system. We mailed surveys to the administrators
         of the sampled nursing homes to learn about the work of their QA committees. We followed
         up with a second mailing to those nursing homes who had not responded. We received
         responses from 384 nursing homes, yielding a 63.9 percent response rate. Appendix A
         contains additional information about the survey, including confidence intervals for key
         questions and a nonrespondent analysis.

         In addition, we judgementally selected and visited three nursing homes to learn more about their
         QA committees. In each nursing home, we met with the administrator and other individuals
         involved in the QA committee. In one nursing home we observed a QA committee meeting.
         We also interviewed a judgemental sample of stakeholders from organizations with interest and
         expertise in nursing home quality assurance, as well as nursing home executives and CMS
         regional office staff. Since the data collected from


Nursing Home QA Committees                             2                                      OEI-01-01-00090
         these entities were from a purposive sample, this information cannot be generalized to the
         population.

         We analyzed nursing home data from the OSCAR system to identify the frequency of
         deficiencies for QA committee survey requirements from 1997 to 2001. We also reviewed
         relevant literature, laws, regulation, and other documents.

         We conducted this inspection in accordance with the Quality Standards for Inspections
         issued by the President’s Council on Integrity and Efficiency.




Nursing Home QA Committees                          3                                     OEI-01-01-00090
                                         FINDINGS

         Our assessment shows that nearly all nursing homes meet CMS’ requirements for QA
         committee membership and frequency of meetings. Furthermore, QA committees have an
         array of data sources to help target problem areas in their nursing homes. However, a lack of
         knowledge on conducting QA committee work, as well as staff shortages and turnover,
         challenge QA committees. The OBRA 87 mandates that nursing homes maintain QA
         committees as vehicles for improving quality of care and life in nursing homes. Our review is
         based on 384 responses to a mail survey of a national random sample of nursing homes; site
         visits to 3 nursing homes; 33 interviews with stakeholders with expertise and interest in nursing
         home quality; data from CMS’ OSCAR system; and relevant literature, laws, regulation, and
         other documents.

Overall, nursing homes are in compliance with QA committee
requirements but face some barriers.

Nursing homes meet requirements for QA committee membership.

         Data from CMS’ OSCAR system show that from 1997 to 2001, 99 percent of nursing homes
         met CMS’ requirements for QA committee membership. At a minimum, the QA committee
         must include the director of nursing, a physician, and
         three other members of the nursing home’s staff.                                Table 1
         However, nursing homes include a variety of staff on their
         QA committees, including a core of key personnel (see            Participation of nursing home
                                                                              staff in QA committees
         Table 1). In 80 percent of nursing homes we surveyed,
         QA committees consisted of 7 or more members from
                                                                      Director of nursing                  99%
         several areas of their nursing homes. Committee              Administrator                        96%
         members identified by respondents include directors of       Social services manager              93%
         dietary services, activities, and housekeeping               Medical  director                    90%
                                                                      Infection control manager            82%
         departments; business office managers; minimum data set
         coordinators; medical records coordinators; and              Source: OIG survey of nursing homes,
         environmental and maintenance staff. Many QA
         committees also include individuals who are not on their
         staff. For example, 70 percent of nursing homes reported that pharmacy consultants regularly
         participate in committee meetings.

         Nursing home stakeholders we spoke with noted that including a broad membership on the QA
         committee helps to ensure that the committee represents all areas of the home. One nursing
         home administrator we spoke with includes all department managers on her nursing home’s QA
         committee. The committee members are responsible for both




Nursing Home QA Committees                             4                                      OEI-01-01-00090
         handling committee work and communicating to their staff about what happens in each QA
         committee meeting.

         The QA committees, however, typically do not include certified nursing assistants (CNAs) as
         regularly participating members. On our survey, just 24 percent of nursing homes reported that
         CNAs regularly participate on their QA committees. Nursing home professionals we spoke
         with stressed the value of including CNAs in QA committees. As the CNAs are the primary
         caregivers in a nursing home, they possess a wealth of knowledge about a home’s residents, as
         well as knowing which processes and products work best in caregiving. One director of
         nursing told us, “CNAs know 90 percent of the answers.” Nursing home professionals with
         whom we spoke who do not have CNAs participate on the QA committee cite time and staff
         shortages for the exclusion. When CNAs participate in a committee meeting, they are taken
         away from caring for residents. If a nursing home has a staffing shortage, as most do, taking
         time away from caregiving is a tradeoff that few nursing homes can afford.

Nursing homes meet requirements for frequency of QA committee meetings.

         Data from OSCAR show that from 1997 to 2001, 98 percent of nursing homes met CMS’

         requirement for quarterly QA committee

         meetings. Additionally, 61 percent of nursing

         homes indicated on our survey that their QA

         committees meet more frequently than required

         by regulation (see Figure 1). The more

         frequently a QA committee meets, the more

         visible the committee is likely to be in the

         nursing home. Frequent meetings also can give

         attention to issues in a timely manner. 


         While time pressures and other priorities may

         make it difficult for the QA committee to meet

         often, nursing home professionals with whom

         we spoke affirmed the importance of frequent

         meetings. As one nursing home stakeholder

         said, “Does anyone think that meeting once a quarter is going to improve quality?”


The QA committees use an array of data sources to target problem areas in their
nursing homes.

         On our survey, QA committees reported relying on an average of eight sources of information
         to assess the care their nursing homes provide as well as other aspects of the nursing home’s
         operations. Of these sources, 73 percent of nursing homes reported that




Nursing Home QA Committees                          5                                    OEI-01-01-00090
         CMS’ quality indicators (QIs) were a major influence on the work of the QA committee. In
         1999, CMS introduced the QIs as a new means for nursing homes to pinpoint quality-of-care
         issues with data. The QIs encompass 11 areas of care: accidents, behavior/ emotional patterns,
         clinical management, cognitive patterns, elimination/incontinence, infection control,
         nutrition/eating, physical functioning, psychotropic drug use, quality of life, and skin care. One
         nursing home administrator commented, “They are the pulse of our residents’ quality-of-care
         issues.”

         Nursing homes reported that they systematically review and use the QIs, with 68 percent
         reviewing QIs monthly. Some nursing homes review their QIs even more often; 17 percent
         reported reviewing them weekly or more frequently. Almost 80 percent detected concerns
         through their review of QIs and launched projects to further examine these areas. Of these, the
         most common areas of the QIs in which projects
         were undertaken were accidents (77 percent),
         skin care (76 percent), nutrition/eating (71                Using established agendas ensure
                                                                      systematic detection of problems
         percent), and elimination/incontinence (63
         percent).                                              Such an agenda identifies topics and
                                                                      establishes the frequency of their review. For
         Some nursing homes also rely on clinical                 example, the agenda could require that falls
                                                                  be reviewed weekly, while resident
         indicators other than QIs that are created
                                                                  satisfaction surveys be reviewed annually.
         specifically by the nursing home or their corporate      This institutionalizes the agenda.
         or parent office. On our survey, 65 percent noted
         that such indicators had a major influence on the        Source: OIG survey of nursing homes and
                                                                  stakeholder interviews, 2001-2002.
         work of their QA committees. One nursing home
         we visited uses its own indicators. It created
         them to target certain problem areas that they had, both clinical and nonclinical, such as
         medication transcription errors and resident activity participation.

         Committees also use results from surveys to target their work. For example, 81 percent of
         nursing homes reported that results from certification surveys were a major influence on the
         work of their QA committees. Surveys review a nursing home’s entire operation, from quality
         of care to administration to safety. The results of the survey and the deficiencies found alert the
         committee to areas of concern, which they then may address.

         Lastly, QA committees also rely on input from staff and residents to detect problems in the
         nursing home. On our survey, 66 percent of nursing homes reported that staff input and 55
         percent reported that resident input had a major influence on committee work. One nursing
         home that we visited also conducts focus groups with residents and their families. As this
         nursing home has an ethnically diverse population, these focus groups have allowed the
         committee to make changes in the nursing home, especially in dining and activities, that better
         reflect the residents’ needs.




Nursing Home QA Committees                                6                                           OEI-01-01-00090
However, knowledge deficits impede QA committees.

         While QA committees have an array of information to help them pinpoint problems in nursing
         homes, the QA committee’s knowledge of how to use this information to execute projects
         remains a key barrier. On our survey, we asked an open-ended question regarding what
         additional steps CMS could take to help increase the effectiveness of QA committees. The top
         response, reported by 39 percent of nursing homes, was a call for more guidance and examples
         about how to best use their QA committees. Additionally, in its 2001 report examining the
         quality of nursing home care, the IOM found that “most nursing homes, even highly motivated
         ones, may lack the technical expertise and resources—including but not limited to staffing
         levels—necessary to translate...quality improvement systems into practice.”4

         Nursing home stakeholders with whom we spoke reflected those findings and also noted that
         nursing homes are well behind the curve in going beyond traditional quality assurance —finding
         problems and fixing them without necessarily identifying their core causes—to continuous
         quality improvement. Some nursing homes do carry out quality improvement projects, which
         involve measuring baseline performance, collecting appropriate data and information,
         implementing an intervention based on the data, and monitoring the results over time. However,
         it is a more analytic and intensive approach, requiring knowledge of systems and principles of
         measurement, which nursing homes are hard-pressed to meet, and with which they have limited
         experience.

         Nursing homes reported struggles with knowledge on how best to use their QA committees on
         our survey. Thirty-three percent reported a lack of knowledge about how to conduct QA
         committee work as a barrier to the committees’s
         overall effectiveness and 29 percent reported            Wellspring: sharing innovations among
         unclear guidelines and regulations concerning                           nursing homes
         QA committees as a barrier. One particular
                                                              Nursing homes that are a part of Wellspring
         area in which QA committees have a knowledge
                                                              Innovative Solutions have the benefit of
         deficit is with CMS’ quality indicators (QIs).       collaborative relationships they can use to help
         While most nursing homes use the QIs, 35             each other solve their problems. Wellspring is a
         percent of nursing homes reported that their lack    cooperative alliance of independent nursing
                                                              homes, established in 1994, that came together
         of knowledge on how to use these indicators has
                                                              to enhance quality, promote culture change,
         been a barrier to using them more effectively.       and provide efficient and caring services to
                                                                 elders.
         Despite their struggle with executing QA
         committee work, a number of resources exist for         A key element of Wellspring is that all nursing
                                                                 homes collect and use best practices. As staff
         nursing homes. For example, some nursing
                                                                 from all levels in Wellspring homes participate
         homes have formed alliances to share such               in teams that look at data, these teams are able
         information (see box at right for an example).          to consult staff in other Wellspring homes on
         The parent organizations of some nursing homes          their experiences. This way, each nursing home
                                                                 is able to benefit from the knowledge of the
         have quality processes and systems that can
                                                                 other nursing homes.
         guide the work of QA
                                                                 Source: OIG stakeholder interviews, 2001.


Nursing Home QA Committees                             7                                               OEI-01-01-00090
         committees. The American Association for Homes and Services for the Aging published a
         guide for its member nursing homes on steps to a successful quality assurance program and has
         held training courses on using the guide. Other organizations, such as the American Medical
         Directors Association, conduct training seminars on using the QIs for quality improvement
         projects. Furthermore, some states have initiatives aimed at helping nursing homes with quality
         assurance and improvement work.

         The extent to which nursing homes and their QA committees take advantage of these resources
         is unknown. Some suggest that CMS needs to exert leadership in this capacity. As discussed
         below, staff shortages and time constraints can impede QA committee work. As a result, QA
         committees may be hard pressed to take full advantage of such resources.

Staff shortages and turnover challenge QA committees.

         Because members of QA committees handle committee work on top of their regular tasks in
         the nursing home, staff shortages and turnover remain a key barrier to the QA committee’s
         work. On our survey, 53 percent of nursing homes reported that not having enough staff was a
         barrier to a more effective committee, and 47 percent of nursing homes cited general staff
         turnover, such as among certified nursing assistants, as a barrier. As a recent national study has
         reported that 9 out of 10 nursing homes are seriously understaffed, these barriers to effective
         QA committees may frequently occur.5

         Staff shortages and turnover can impede QA committees in many ways. With such shortages,
         resident care will take a priority over QA committee work. Turnover also challenges a nursing
         home’s ability to have a QA committee that can effectively follow-up and be accountable for
         ensuring improvements in the home. With a continual influx of new staff and their needs for
         orientation and training, getting staff up to speed with what is happening in a home’s QA
         committee may not be a priority. Turnover of QA committee members may especially impede
         the committee, as the person’s knowledge and expertise about committee work leave the
         nursing home with the person.

         Turnover at the leadership level of a nursing home further impedes the QA committee.
         Leadership commitment to quality improvement is vital for instilling a culture that can promote
         accountability for quality. As an executive from one nursing home told us, “Having a (QA)
         committee is one piece, but it is not the answer...it has to permeate your organization.”
         According to stakeholders, having someone champion quality at the helm can promote buy in
         for quality efforts throughout the home. However, the reality for many homes is that turnover in
         key leadership positions makes that culture elusive. On our survey, 27 percent cited turnover in
         such positions as a barrier to a more effective QA committee. In some cases, nursing homes
         responding to our survey were unable to answer basic questions about their QA committee,
         noting a recent turnover in leadership positions. In fact, filling leadership positions are becoming
         increasingly difficult as fewer candidates are being attracted to the administrator’s position: from
         1997 to 2000, the number of candidates taking the long-term care administrator’s exam
         declined by 37 percent.6


Nursing Home QA Committees                            8                                     OEI-01-01-00090
                                   CONCLUSION

         Our review shows that nearly all nursing homes meet CMS’ two requirements for QA
         committees. The QA committees also have many sources of information available to them.
         However, a lack of knowledge on how to use this available information impedes QA
         committees. Additionally, staff shortages and turnover in nursing homes are further barriers to
         QA committees. These fundamental challenges can impede the work of even the most diligent
         QA committee.




Nursing Home QA Committees                          9                               OEI-01-01-00090
                                                                                  APPENDIX A



                                       Methodology


Survey of Nursing Homes

         We mailed a survey to administrators of a national simple random sample of nursing homes in
         November 2001 and sent a follow-up mailing in December 2001 to those who had not
         responded . We preceded our survey mailing with a cover letter that was sent in October 2001
         informing the nursing home administrators about the survey and this inspection.

         We requested that the survey be completed by the home’s Director of Nursing (a required
         member of the QA committee) or another individual responsible for the QA committee. Our
         survey solicited information on the following areas: background information on the nursing
         home, structure of the QA committee, work of the QA committee, committee projects, CMS’
         Quality Indicators, barriers to QA committee effectiveness, assessment of the QA committee,
         and an open-ended section for additional comments.

         We chose to survey a national simple random sample of nursing homes, because the
         requirements for QA committees apply to all nursing homes that participate in Medicare. Our
         original sample comprised 671 nursing homes randomly selected from CMS’ Online Survey
         Certification and Reporting (OSCAR) system database. We deleted 17 nursing homes from
         the original sample after consulting with other components of the Office of Inspector General,
         reducing our sample size to 654. We then were notified that 53 nursing homes had ceased
         operations, even though they still appeared in the OSCAR database, reducing our final sample
         size to 601.

         We received responses from 384 nursing homes, yielding a response rate of 63.9 percent.

Nonrespondent Analysis

         To determine whether significant differences exist between survey respondents and
         nonrespondents, we conducted nonrespondent analyses using four variables. These variables
         included: average complaints per nursing home (using number of beds as the denominator),
         average deficiencies per nursing home (also using number of beds as the denominator), number
         of certified beds, and nursing home control. One nursing home that responded to our survey
         excluded identifying information; therefore, we based these analyses on 383 respondents.



Nursing Home QA Committees                         10                                    OEI-01-01-00090
                                                                                    APPENDIX A


Complaints and deficiencies

         We obtained data for the average complaints and average deficiencies from the OSCAR
         complaints files. Because 492 of the 601 nursing homes in our sample had a match to the
         complaints file, we limited the analyses for these two variables to these 492 nursing homes. Of
         the 492 nursing homes, 160 did not respond, and the remaining 332 responded. We used
         averages for the deficiencies and complaints to allow for the difference in the size among the
         nursing homes.

         The average number of complaints per nursing home was .0157 for nonrespondents, compared
         to .0155 for respondents. The average deficiencies per bed for nonrespondents was .115,
         compared to .0963 for responding nursing homes. No significant difference at the 95 percent
         confidence level existed between the average complaints, or average deficiencies, for the two
         groups.

Analysis by number of certified beds and nursing home control

         The average number of certified beds in nursing homes responding to our survey was 113,
         compared to 100 for nonrespondents. A t-test found a statistically significant difference
         between the means at the 95 percent confidence level.

                                                     Sample       Respondents        Nonrespondents
                                                     N=601           N=383               N = 218
              Average number of certified beds         108              113                   100
              t = - 2.07                                                   Degrees of freedom = 599


         An analysis by nursing home control showed a significant difference between nonrespondents
         from for-profit nursing homes and not-for-profit/government-owned nursing homes. The Chi-
         square test was significant for the control variable, because it was greater than 3.84 at the 95
         percent confidence level.

                                                   Sample         Respondents        Nonrespondents

               For-profit                        441 (73.4%)        266 (69.5%)          175 (80.3%)

               Not-for-profit/government         160 (26.6%)        117 (30.5%)           43 (19.7%)

                             Total                    601               383                   218

               Chi - square statistic = 8.33                                      Degrees of freedom = 1


Nursing Home QA Committees                          11                                     OEI-01-01-00090
                                                                                   APPENDIX A


         Because of the significant differences from these analyses, we conducted further analysis to
         determine the effect of the relationship between the number of certified beds and response rate,
         and nursing home control and response rate. Assuming nonrespondents would have answered
         questions the same as respondents, we calculated hypothetical responses for key questions
         related to our findings. All calculations were within the 95 percent confidence intervals of the
         original estimates. Thus, we did not find statistical evidence of bias based on number of
         certified beds or nursing home control.

         Confidence Intervals for Key Questions (95 percent)


          Description                                                          Point       Confidence
                                                                               estimate    Interval
          QA committees with 7 or more members                                   80%          +/- 4.0%
          QA committees with regularly participating CNAs                        24%          +/- 4.3%
          QA committees that meet monthly or more frequently                     61%          +/- 4.9%
          QIs are a major influence on the work of the QA committee              73%          +/- 4.4%
          Certification surveys are a major influence on the QA committee        81%          +/- 3.9%
          Nursing homes want more QA committee guidance from CMS                 39%          +/- 4.9%
          Lack of knowledge on how to use QIs is a barrier to effective          35%          +/- 4.8%
          use
          Lack of staff to do QA committee work is a barrier to having an        53%          +/- 5.0%
          effective QA committee
          General staff turnover is a barrier to overall effectiveness of QA     47%          +/- 5.0%
          committee
          Leadership turnover is a barrier to an effective QA committee          27%          +/- 4.4%


Site Visits

         We judgementally selected and visited three nursing homes in Massachusetts, New Hampshire,
         and Wisconsin to learn more about their QA committees. In one nursing home we observed a
         QA committee meeting. In each nursing home, we met with the administrator as well as key
         staff involved in the QA committee, including directors of nursing, other nursing staff, minimum
         data set coordinators, department managers, and certified nursing assistants. Since the data
         collected from these entities were from a purposive sample, this information obtained cannot be
         generalized to the population.


Nursing Home QA Committees                             12                                 OEI-01-01-00090
                                                                                    APPENDIX A



Stakeholder Interviews

         We judgementally selected and interviewed, either in person or by telephone, 33 stakeholders
         with expertise and interest in nursing home quality assurance. These stakeholders included
         CMS central office staff and senior nursing home surveyors in CMS regional offices. Since the
         data collected from these entities was from a purposive sample, this information obtained
         cannot be generalized to the population. We also interviewed representatives from the
         American Association of Homes and Services for the Aging, American Health Care
         Association, the National Citizens’ Coalition for Nursing Home Reform, the American College
         of Health Care Administrators, and the Pioneer Network, as well as representatives from state
         affiliates of these organizations. Additionally, we interviewed executives and staff from nursing
         homes and nursing home corporations.

OSCAR data analysis

         We analyzed all nursing home data from CMS’ OSCAR system for the years 1997 to 2001 to
         identify the frequency of deficiencies for QA committee survey requirements (F520 and F521).
         The deficiency rates presented below are for the number of deficiencies for each requirement in
         a calendar year divided by the number of surveys conducted in that year.

                      Deficiency Rates for QA Requirements for Nursing Homes, 1997 - 2001

                       Requirement                1997        1998        1999        2000          2001

          Committee membership (F520)             0.7%        0.5%        1.0%        1.2%          0.9%

          Quarterly Meetings (F521)               2.0%        1.8%        2.0%        2.5%          2.1%



Document review

         We reviewed relevant federal laws and regulations, as well as chapters of CMS’ State
         Operations Manual relative to the Survey and Enforcement Process for Skilled Nursing
         Facilities and Nursing Facilities. We also reviewed plans of correction completed by nursing
         homes and survey deficiency reports. Lastly, we reviewed articles, books, and reports relative
         to quality assessment and assurance in nursing homes.




Nursing Home QA Committees                          13                                     OEI-01-01-00090
                                                                        APPENDIX B


                                         Endnotes



1. Institute of Medicine, Improving the Quality of Care in Nursing Homes (Washington, DC:
National Academy Press, 1986), 21.

2. Centers for Medicare & Medicaid Services, State Operations Manual, page P-77.

3. Ibid.

4. Institute of Medicine, Improving the Quality of Long-Term Care (Washington, DC: National
Academy Press, 2001), 15.

5. Appropriateness of Minimum Nurse Staffing Ratios in Nursing Homes: Phase II Final Report
(Cambridge, MA: Abt Associates, 2001), 1-7. Accessed from
http://www.house.gov/reform/min/inves_nursing/nursing_cms_rep.htm on April 25, 2002.

6. National Association of Boards of Examiners of Long Term Care Administrators press release,
Nursing Home Administrators: A Vanishing Profession? Third Year of Decline, Increasing Need,
Signals Crisis-in-the-Making. March 2, 2001




Nursing Home QA Committees                    14                                   OEI-01-01-00090
                             ACKNOWLEDGMENTS


This report was prepared under the direction of Mark R. Yessian, Ph.D., Regional Inspector General
for Evaluation and Inspections in Boston and Joyce M. Greenleaf, M.B.A., Assistant Regional
Inspector General. Other principal Office of Evaluation and Inspections staff who contributed include:

Maria E. Maddaloni, M.A., Lead Analyst                 Sandy Khoury, Program Specialist
Christopher T. Gould, M.S., Program Analyst            Bambi D. Straw, Program Specialist
                                                       Barbara Tedesco, Mathematical Statistician
                                                       Linda Moscoe, Technical Support Staff




                          For information or copies of this report, please contact
                                     the Office of Inspector General’s
                                 Public Affairs office at (202) 619-1343.
              Reports are also available on the World Wide Web at our home page address:
                                          http://www.oig.hhs.gov/




Nursing Home QA Committees                        15                                    OEI-01-01-00090
